in as Kansas Department of Corrections.
n

• ®
Lexis

Document: Alford v. Cline, 2020 U.S. Dist. LEXIS 90209
r*~^i

Go to

S/

Page

Page #

✓s s/

All terms

2

/\ \/

Search Document Q

^ lof 1 | Results list y

© Alford v. Cline, 2020 U.S. Dist. LEXIS 90209
Copy Citation
United States District Court for the District of Kansas
May 22, 2020, Decided; May 22, 2020, Filed
CASE NO. 20-3003-SAC
Reporter
2020 U.S. Dist. LEXIS 90209 *
BRENT L. ALFORD, Petitioner, v. SAM CLINE, Warden, El Dorado Correctional Facility, Respondent.
Prior History: State v. Alford. 257 Kan. 830. 896 P.2d 1059. 1995 Kan. LEXIS 83 (June 2. 19951

Core Terms
time-barred, post-conviction, reconsider, sentenced, corpus, tolled
Counsel: [*1] Brent L. Alford, Petitioner, Pro se, Oswego, KS.
Judges: SAM A. CROW, SENIOR UNITED STATES DISTRICT JUDGE.
Opinion by: SAM A. CROW

Opinion

MEMORANDUM AND ORDER

This matter is a petition for writ of habeas corpus filed under 28 U.S.C. 5 2254. Petitioner proceeds pro
se and has paid the filing fee.

Background
Petitioner was sentenced in the Sedgwick County District Court in August of 1993, in Case No. 93-CR401. On appeal, the Kansas Supreme Court affirmed Petitioner's sentences. State v. Alford. 257 Kan830, 896 P.2d 1059 (Kan. 19951.
Petitioner previously filed a petition under § 2254 on allegations of error related to his state conviction
in Case No. 93-CR-401. See Alford v. Cline, Case No. 11-3062-SAC. The Court dismissed the petition
as time-barred on June 2, 2011. Id. at ECF No. 4. On August 2, 2016—more than five years
later—Petitioner filed a motion for relief from void judgment, which was denied on January 24, 2017.
Id. at ECF No. 9. Petitioner appealed the district court's denial of his Rule 60(b) motion. The Tenth
Circuit concluded that reasonable jurists could not debate the correctness of the district's court's
decision, declined to issue a certificate of appealability ("COA"), and dismissed the matter. Alford v.
Cline. 696 F. Apd'x 871 (10th Cir. 2017).
Petitioner filed another habeas petition in 2019, this time under 6 2241. See Alford v. Cline [*2] ,
Case No. 19-3059-SAC. The Court, however, found that he was challenging the validity of his
conviction and thus construed the petition as a 5 2254 action. The Court further found it was a second
i

or successive action under 5 2254. which required Petitioner to first obtain authorization from the
circuit court of appeals before this Court could consider the petition. See 28 U.S.C. 5 2244(bJ(,3,)(AJ.
Without such authorization, "[a] district court does not have jurisdiction to address the merits of a
second or successive . . . § 2254 claim." In re Cline. 531 F.3d 1249, 1251 (10th Cir. 20081 (per
curiam). Because Petitioner had not obtained prior authorization, the Court dismissed his petition.

Analysis
This petition is Mr. Alford's third under § 2254. His initial petition was dismissed as time-barred. While
a habeas petition filed after an initial petition was not adjudicated on its merits is not a second or
successive petition (see Slack v. McDaniel. 529 U.S. 473, 120 S. Ct. 1595, 146 L. Ed. 2d 542 (2000)).
the Tenth Circuit has found that dismissal as time-barred is a dismissal on the merits. See McDowell v.
Zavaras, 417 F. Apd'x 755 (10th Cir. 20111 (collecting cases from other circuits). Therefore, this
subsequent habeas petition challenging the same convictions is second or successive. Id.
A prisoner may not file a second or successive action under § 2254 without first obtaining
authorization from the circuit court of appeals allowing the district court to consider the petition. 28
U.S.C. § 2244(b)(3)(A). Without such authorization, the Court does not have jurisdiction to address
the merits of Mr. Alford's § 2254 petition. In re Cline. 531 F.3d 1249, 1251 f 10th Cir. 20081 (per
curiam).
When a district court receives a successive petition without the necessary authorization, the court may
either dismiss it for lack of jurisdiction or transfer [*3] it to the circuit court in the interest of justice.
Id. at 1252. Factors the Court considers in deciding whether a transfer is in the interest of justice
include "whether the claim would be time barred if filed anew in the proper forum, whether the claims
alleged are likely to have merit, and whether the claims were filed in good faith." Id. at 1251 (citing
Trujillo v. Williams. 465 F.3d 1210. 1223 n.16 (10th Cir. 2006)). In the present case, the Court finds
grounds to transfer the action to the Tenth Circuit Court of Appeals.

While Petitioner should have been well aware that he needed to request authorization from the Tenth
h.

U1

Circuit before filing a petition here, he has a basis for questioning the time bar. Petitioner points to the
Tenth Circuit's ruling in Strong v. Hrabe. 750 F. App'x 731 (10th Cir. 20181. In Strong, the petitioner
filed a 5 2254 petition in this Court thirty-five (35) years after his conviction. Mr. Strong argued the
one-year statute of limitations provided for by 28 U.S.C. § 2244(,dKlI was tolled under § 2244(d)(2)
because he had filed a post-conviction motion which remained pending in state district court. The
Tenth Circuit agreed with Mr. Strong that the motion was a "properly filed application for State post­
conviction relief or other collateral review with respect to the pertinent judgment or claim" and
therefore the statute of limitations [*4] was tolled. Id. at 736.
In this case, Mr. Alford filed a motion to reconsider the state district court's denial of his state habeas
action at the same time he filed a notice of appeal on April 1, 1998, within the AEDPA limitation period.
The state court has never ruled on his motion to reconsider. See Alford, 696 F. App'x at 872.
Therefore, it is possible that Mr. Alford's petition is not time-barred.
The Court finds that in the interest of justice, the petition should be transferred to the U.S. Court of
Appeals for the Tenth Circuit for its determination on whether Petitioner may proceed.
IT IS THEREFORE ORDERED BY THE COURT that this matter is an unauthorized second or
successive petition under 28 U.S.C. 5 2254. which this Court lacks jurisdiction to consider. All pending
motions (ECF Nos. 4, 5, 9, and 11) are denied.
IT IS FURTHER ORDERED that this matter is transferred to the U.S. Court of Appeals for the Tenth
Circuit pursuant to 28 U.S.C. 5 1631 for its determination on whether this successive application for
habeas corpus relief may proceed.
IT IS SO ORDERED.
Dated in Topeka, Kansas, on this 22nd day of May, 2020.
/s/ Sam A. Crow
SAM A. CROW
SENIOR U.S. DISTRICT JUDGE

Privacy Policy

Terms & Conditions

Copyright © 2020 LexisNexis.

